OFFICE OF THE ATTORNEY GENERAL
STATE OF ILLINOIS

KWAME RAOUL
ATTORNEY GENERAL

December 2, 2020
The Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543-0001
Re:

Taylor v. Illinois, No. 20-5344

Dear Mr. Harris:
This letter is sent as a request by respondent, the State of Illinois, for a 24-day
extension of time, to and including January 7, 2021, to file its brief in opposition to
the petition for a writ of certiorari in Taylor v. Illinois, 20-5344,. Currently, the
State’s response is due on December 14, 2020, following one extension of time. My
office has contacted petitioner’s counsel, who indicated that he has no objection to
this request.
I request this extension because Assistant Attorney General (AAG) Erin O’Connell,
assigned to represent the State in this matter, has been diligently working on the
brief in opposition, has had to attend to additional matters, including preparing for
and presenting oral arguments in the Illinois Appellate Court, Third District, in
People v. Rish, No. 3-19-0446, on December 2, 2020; and in the United States Court
of Appeals for the Seventh Circuit in Cal v. Garnett, No. 20-1047, on December 16,
2020. And in her role as a Supervising Attorney, AAG O’Connell has taken on
additional work reviewing pleadings while other supervisors have been unavailable
over the Thanksgiving holiday.
After AAG O’Connell completes a draft of the response, supervisors in the Office of
the Illinois Attorney General will need to review it. To avoid any conflict with the
out-of-office plans of supervisors around the Christmas holiday, I request that the
deadline for the response be extended into January.

500 South Second Street, Springfield, Illinois 62701 (217) 782-1090 TTY: (877) 844-5461 Fax: (217) 782-7046
100 West Randolph Street, Chicago, Illinois 60601 (312) 814-3000 TTY: (800) 964-3013 Fax: (312) 814-3806
601 South University Ave., Carbondale, Illinois 62901 (618) 529-6400 TTY: (877) 675-9339 Fax: (618) 529-6416

OFFICE OF THE ATTORNEY GENERAL
STATE OF ILLINOIS

KWAME RAOUL
ATTORNEY GENERAL

This is respondent’s second request for an extension of time. It is not made for the
purpose of delay, but to ensure that respondent’s interests are fully protected.
Thank you for your attention to this matter.
Sincerely,

Michael M. Glick
Criminal Appeals Division Chief
Office of the Illinois Attorney General
100 West Randolph Street, 12th Floor
Chicago, Illinois 60601
(312) 814-2232

500 South Second Street, Springfield, Illinois 62701 (217) 782-1090 TTY: (877) 844-5461 Fax: (217) 782-7046
100 West Randolph Street, Chicago, Illinois 60601 (312) 814-3000 TTY: (800) 964-3013 Fax: (312) 814-3806
601 South University Ave., Carbondale, Illinois 62901 (618) 529-6400 TTY: (877) 675-9339 Fax: (618) 529-6416

OFFICE OF THE ATTORNEY GENERAL
STATE OF ILLINOIS

KWAME RAOUL
ATTORNEY GENERAL

cc:

Michael C. Bennett
Gilbert C. Lenz
Office of the State Appellate Defender
First Judicial District
203 North LaSalle Street, 24th Floor
Chicago, Illinois 60601

500 South Second Street, Springfield, Illinois 62701 (217) 782-1090 TTY: (877) 844-5461 Fax: (217) 782-7046
100 West Randolph Street, Chicago, Illinois 60601 (312) 814-3000 TTY: (800) 964-3013 Fax: (312) 814-3806
601 South University Ave., Carbondale, Illinois 62901 (618) 529-6400 TTY: (877) 675-9339 Fax: (618) 529-6416

